 MEMORANDUM

 Date:          January 5,1999
 To:
 From:
 Via:
 Re:                                                         College of Engineering, Department




We received a letter and
November 18, 1998,
College of Engineering,

According to the official report, the State Auditor's Office received and investigated five
allegations of "improper governmental" or financial activities. The allegations came via an
unidentified whistleblower. In the report, the auditors detail their findings and the university's
corrective actions thus far.

Report Findings:


Allegation 1 : The use of university computers for personal matters.

The Chair of the Department was found to use 4 of his 5 university-issued computers for his
personal use, as they were found to contain personal files and software. The University removed

                  .
all his personal files from the computers and demanded he attend ethics training.




NSF funded t   h     e grant for a five-year period starting                 The audit office
      o evidence that the software, purchased with federal funds, was not being used for the
       program and no equipment was purchased through federal funds.
~llegation3 : The
use.
                      i                                      used a university computer for his personal


                            nessed the                     sing the computer during regular work hours,
                                                            limited to off-work hours (lunch, after hours).
Th

Allegation 4: Equipment and materials and supplies were removed from the department without
authorization.

No evidence was found to support this assertion.
                                         >


Allegation 5: The                                              falsified cost transfer invoices to transfer
unspent federal gr                   i                         ..
An i n v e s t i g a mvealed thatdah-t               falsif ed so e cost transfer invoices totaling
$2,378.12 o             grant money. A check was issued ti         n the amount of $2,378.12.

Conclusion:
                                                               g    .                   .&,
Of the whistleblower's five allegations, only the second was identif;ed to deal dlrectly with NSF
grant funding of the                       this point, the Materials Science Department has Gnce
been cleared by the                      of any misconduct in the purchasing of equipment and
computer software

As the report reveals, the                   llegation - falsifying invoices - was the only substantive
assertion. A minor sum o                      grant money was involved and paid off by the University.
However, there is                                               standing and ground necessary to look into
whether or not the                                            deceptive conduct affected NSF monies

Thus, no further review is warranted at this time. Case is closed.
